United States Government                                                  Department of Energy


memorandum
      DATE:   April 7, 1999
   REPLY TO
   ATTN OF:   IG-35 (A98AL004)

   SUBJECT:   "Report on Matters Identified at the Albuquerque Operations Office
              During the Audit of the Department of Energy's Consolidated Fiscal Year
              1998 Financial Statements."

        TO:   Manager, Albuquerque Operations Office

              Attached is the subject report. A Management Decision is not required because
              the proposed actions to be taken meet the intent of the recommendations. The
              details of management and auditor comments can be found in the report.

              Some recommendations are open and should be tracked in the Departmental Audit
              Report Tracking System. The recommendations that require tracking are shown in
              the "DARTS" column in the attached schedule. In addition, Part III of the report
              identified seven findings which are still pending resolution or require further
              attention and should continue to be tracked in DARTS.

              We appreciate the cooperation of your staff during this audit, including the
              attention given to resolving the findings.



                                            Lawrence R. Ackerly, Regional Manager (Signed)
                                            Western Regional Audit Office
                                            Office of Inspector General


              Attachments

              cc: Len Raab, Management Review Division, Albuquerque Operations Office (3)
                               U.S. DEPARTMENT OF ENERGY
                              OFFICE OF INSPECTOR GENERAL




                   REPORT ON MATTERS IDENTIFIED AT THE
                      ALBUQUERQUE OPERATIONS OFFICE
              DURING THE AUDIT OF THE DEPARTMENT OF ENERGY'S
            CONSOLIDATED FISCAL YEAR 1998 FINANCIAL STATEMENTS




The Office of Inspector General wants to make the distribution of its reports as customer friendly
 and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following addresses:


               Department of Energy Management and Administration Home Page
                                  http://www.hr.doe.gov/ig
                                             or
                                   http://www.ma.doe.gov

                 Your comments would be appreciated and can be provided on the
        Customer Response Form attached to the report. This report can be obtained from the:

                                   U.S. Department of Energy
                          Office of Scientific and Technical Information
                                           P.O. Box 62
                                  Oak Ridge, Tennessee 37831




Report Number: WR-FS-99-02                                     Western Regional Audit Office
Date of Issue: April 7, 1999                                   Albuquerque, New Mexico 87185
                  REPORT ON MATTERS IDENTIFIED AT THE
                     ALBUQUERQUE OPERATIONS OFFICE
             DURING THE AUDIT OF THE DEPARTMENT OF ENERGY'S
           CONSOLIDATED FISCAL YEAR 1998 FINANCIAL STATEMENTS


                                 TABLE OF CONTENTS

                                                                                          Page

           SUMMARY… … … … … … … … … … … … … … … … … … … … … … … … … …                       1

PART I -   APPROACH AND OVERVIEW… … … … … … … … … … … … … … … … … …                         2

           Introduction… … … … … … … … … … … … … … … … … … … … … … … … … … .                2

           Scope and Methodology… … … … … … … … … … … … … … … … … … … … … ..                2

           Observations… … … … … … … … … … … … … … … … … … … … … … … … … … .                3

PART II - AUDIT RESULTS… … … … … … … … … … … … … … … … … … … … … … … …                      4

           1. Discrepancies in Albuquerque's Physical Inventory… … … … … … … … … … .        4

           2. Deferred Maintenance… … … … … … … … … … … … … … … … … … … … … ..              5

           3. Yearend Liability Balances… … … … … … … … … … … … … … … … … … … ...           6

           4. Payroll Deficiencies at Sandia… … … … … … … … … … … … … … … … … … ..          8

           5. Understated Salaries Payable at Los Alamos… … … … … … … … … … … … ...        10

           6. Unpaid Obligations… … … … … … … … … … … … … … … … … … … … … … ..             11

           7. Differences with Treasury Balances… … … … … … … … … … … … … … … … .          12

PART III - STATUS OF PRIOR YEAR OPEN FINDINGS AND RECOMMENDATIONS 13

           1. AlliedSignal Inventory Valuation Should Approximate Historical Cost… .… .    13

           2. AlliedSignal Inventory Valuation Includes Excess Capacity… … … … … … ...     13

           3. AlliedSignal Excess Inventory Allowance… … … … … … … … … … … … … …           14
                   TABLE OF CONTENTS (Continued)

                                                                           Page

4. Mason & Hanger Inventory Valuation of Retired Weapons Systems… … ...    14

5. Deobligations of Completed Reimbursable Work… … … … … … … … … … .       15

6. Collection of Delinquent Receivables from Other Federal Agencies… … …   15

7. Grant Advances in Excess of Authorized Amounts… … … … … … … … … .       15
                            U.S. DEPARTMENT OF ENERGY
                            OFFICE OF INSPECTOR GENERAL
                              OFFICE OF AUDIT SERVICES
                           WESTERN REGIONAL AUDIT OFFICE


                   REPORT ON MATTERS IDENTIFIED AT THE
                      ALBUQUERQUE OPERATIONS OFFICE
              DURING THE AUDIT OF THE DEPARTMENT OF ENERGY'S
            CONSOLIDATED FISCAL YEAR 1998 FINANCIAL STATEMENTS


Audit Report Number: WR-FS-99-02

                                          SUMMARY

       The Government Management Reform Act of 1994 requires that the Department of
Energy (DOE) annually submit audited financial statements to the Office of Management and
Budget (OMB). A DOE-wide audit was conducted to determine whether there was reasonable
assurance that DOE's consolidated Fiscal Year (FY) 1998 financial statements were free of
material misstatements. We conducted a portion of the DOE-wide audit at the Albuquerque
Operations Office (Albuquerque) and its management and operating contractors.

        The audit at Albuquerque and its contractors disclosed deficiencies, as of September 30,
1998, in the property, liability, and receivable accounts. In addition, the audit disclosed
unconfirmed unpaid obligations and differences with the amount of funds on hand reported by the
Department of Treasury (Treasury). Finally, Albuquerque had not completed corrective actions
on prior findings related to nuclear materials, reimbursable work, delinquent receivables, and
grant reconciliations.

        We recommended that adjustments be made to the accounts and improvements be made
to the internal controls. Management generally agreed with the findings and recommendations
and initiated corrective actions.


                                                            (Signed)
                                                     ______________________
                                                     Office of Inspector General
                                               PART I

                                  APPROACH AND OVERVIEW

INTRODUCTION

       The Government Management Reform Act of 1994 requires that audited financial
statements covering all accounts and associated activities of DOE be submitted annually to
OMB. A DOE-wide audit of the consolidated FY 1998 financial statements was conducted by
examining internal controls, assessing compliance with laws and regulations, evaluating
accounting transaction cycles, and testing selected account balances at various DOE facilities.

        The objective of the DOE-wide audit was to determine whether the DOE consolidated
financial statements presented fairly, in all material respects, the financial position of DOE as of
September 30, 1998 and 1997, and its consolidated net cost, changes in net position, budgetary
resources, financing activities, and custodial activities for the fiscal years then ended in
conformity with federal accounting standards. DOE-wide issues are addressed in Audit Report
No. DOE/IG-FS-99-01, issued on February 25, 1999.

        The purpose of this report is to inform Albuquerque management of matters that came to
the attention of the Office of Inspector General (OIG) during the audit of Albuquerque and its
contractors. Albuquerque is responsible for the account balances entered into DOE's core
accounting system.

SCOPE AND METHODOLOGY

        The audit was conducted from April 1998 through January 1999 at Albuquerque and
Sandia Corporation, Albuquerque, New Mexico; Los Alamos National Laboratory, Los Alamos,
New Mexico; Mason & Hanger Corporation, Amarillo, Texas; and AlliedSignal Federal
Manufacturing & Technologies/Kansas City, in Kansas City, Missouri. Specifically, we examined
internal controls, assessed compliance with applicable laws and regulations, and selectively tested
account balances reported to DOE Headquarters as necessary to achieve DOE-wide audit
objectives.

         The audit was performed in accordance with generally accepted Government auditing
standards for financial audits. Since we relied on computer-generated data, we evaluated the
general and application control environment of certain financial systems and evaluated the
reliability of the data on a test basis.

        Because the audit was limited, it would not necessarily disclose all of the internal control
weaknesses that may have existed. Furthermore, because of inherent limitations in any system of
internal controls, errors or irregularities may nevertheless occur and not be detected. The issues
addressed in this report represent our observations of activities through the end of fieldwork on
January 5, 1999. Projection of any evaluation of the internal controls to future periods is subject



                                                   2
to the risk that procedures may become inadequate because of changes in conditions or that the
effectiveness of the design and operation of policies and procedures may deteriorate.

         In addition to the audit work conducted by the OIG, internal audit personnel and an
independent public accounting firm reviewed certain cycles. Los Alamos and Sandia internal
audit personnel reviewed the Payroll Cycle at their respective locations. Internal Audit reported
issues needing corrective actions to their management in separate reports. An independent
public accounting firm reviewed the Nuclear Material Inventories Cycle at Albuquerque,
AlliedSignal, and Mason & Hanger; the Disbursements Cycle and the Financing and Revenue
Cycle at Albuquerque, Sandia, and Los Alamos; and the Pension and Other Post-Retirement
Liabilities Cycle at Sandia and Los Alamos.

       The OIG considered all findings, generated as a result of these reviews, when preparing
the DOE-wide report and the management report referred to in that report. The OIG is
addressing issues requiring local management's attention in this report.

       An exit conference was held with Albuquerque management on January 14, 1999.

OBSERVATIONS

        We observed misstated accounts and internal control deficiencies. Specifically,
Albuquerque had not completed its investigation of nine items that were not located during a FY
1997 physical inventory; therefore, it was uncertain whether net property, plant, and equipment
should be adjusted. In addition, deferred maintenance data was unavailable for 80 buildings.
There were errors in Albuquerque's accounts payable and accrued expenses. Sandia had payroll
deficiencies, including overpayments, that impacted the accuracy of its payroll costs. Los
Alamos understated its salaries payable. Furthermore, Albuquerque had not reviewed its unpaid
obligations or reconciled its funds with Treasury.

        We recommended that adjustments be made to the accounts and improvements be made
to the internal controls. Management generally concurred with the recommendations and
planned to adjust the accounts, improve internal controls, and implement corrective actions.

        Finally, we noted that Albuquerque had not completed corrective actions on seven
findings contained in the prior year's report.

       Part II of this report provides additional details concerning the audit results and
management's comments. Part III of the report provides the status of prior year open findings
and recommendations.




                                                 3
                                            PART II

                                       AUDIT RESULTS


1. Discrepancies in Albuquerque's Physical Inventory

        DOE's Accounting Handbook requires the Head of the Field Element, the property
administrator, and the Field Chief Financial Officer (CFO) to investigate all significant
discrepancies identified through the physical inventory and reconciliation process, determine the
causes, and take remedial measures where possible to safeguard against waste, theft, and misuse
of property. As of September 30, 1998, however, Albuquerque had not completed its
investigation of nine discrepancies identified during the FY 1997 physical inventory.
Albuquerque cited resource limitations, other priorities, and its belief that the unlocated items
were incorporated into other systems as reasons for not completing its investigation. Without
completing the investigation, however, Albuquerque cannot assure that the unlocated items were
incorporated into other systems. As a result of the discrepancies, Albuquerque's property, plant,
and equipment could be overstated by about $574,000, less the applicable accumulated
depreciation.

Recommendations

       We recommend that the Manager, Albuquerque, direct the property administrator and the
Field CFO to:

       1. Complete the investigation of the nine discrepancies; and,

       2. Adjust the accounting records as appropriate.


Management Comments

       Management concurred and stated that it had found three of the items. On March 23,
1999, management granted approval for write-off of the remaining items from the financial
records.

Auditor Comments

       Management's corrective actions are responsive to the finding and recommendations.




                                                4
2. Deferred Maintenance

        The Statement of Federal Financial Accounting Standards No. 6, Accounting for
Property, Plant, and Equipment, requires federal agencies to report deferred maintenance.
However, Lovelace Biomedical and Environmental Research Institute (LBERI) did not provide
Albuquerque with deferred maintenance data for 80 buildings. According to Albuquerque
personnel, LBERI refused to provide the data because LBERI said it was not a requirement of
its cooperative agreement with DOE. As a result, the deferred maintenance amounts reported in
the notes to the financial statements will not be accurate.

Recommendation

       We recommend that the Director, Technology Development Division, Albuquerque, take
the appropriate action to obtain the necessary deferred maintenance data from LBERI.

Management Comments

        Management concurred with the finding and recommendation and initiated corrective
action. LBERI provided the deferred maintenance data for all but two items in January 1999 and
will provide the remaining data by April 6, 1999.

Auditor Comments

       Management's corrective actions are responsive to the finding and recommendation.




                                               5
3. Yearend Liability Balances

         DOE's Accounting Handbook requires liabilities, which include accrued expenses and
payables, to be measured and recorded as accurately as possible. However, we found three
instances where Albuquerque had not accurately recorded liabilities as of September 30, 1998.
In the first instance, $3.1 million for services received in August 1998 was not accrued because
the invoice was not received before yearend and the program manager overlooked including the
cost in the accrual worksheet. In the second instance, an accounts payable had about a $604,000
debit balance because payment to the vendor was recorded before the liability was recorded. In
the third instance, an accounts payable had about a $165,000 credit balance because an advance
account was debited rather than the payable account when the payment was made. As a result,
Albuquerque's liabilities were understated by about $3.5 million, assets were overstated by about
$165,000, and expenses were understated by about $3.7 million.

Recommendations

       We recommend that the CFO, Albuquerque:

       1. Make the necessary accounting entries to correct the account balances;

       2. Review all accounts payable as of September 30, 1998, to ensure that the payables
          represent valid liabilities; and,

       3. Assure that program managers establish yearend accruals for program costs incurred
          for which they have not received a bill.

Management Comments

        Albuquerque partially concurred with the first recommendation. Management stated that
the underaccrual of $3.1 million was less than one percent of the total FY 1998 accrued expenses
and therefore did not warrant an adjustment to FY 1998 balances. Management agreed to
correct the accounts for the second and third instances by March 30, 1999.

         Although it concurred with the second recommendation, Albuquerque stated that it was
impractical to review all accounts payable as of September 30, 1998, as there were over 2,500
accounts. However, Albuquerque dedicated an accountant full time to review and resolve debit
liability balances.

        In commenting on the third recommendation, management stated that it had taken actions
to assure that program managers established yearend accruals. For example, the Albuquerque
Financial Services Center (AFSC) and the Budget and Resources Management Division (BRMD)
conducted two training sessions in FY 1998 designed specifically for yearend accruals. Twenty-
one program managers or financial analysts were briefed on the importance of costs and the
accrual process and provided detailed instructions on how to prepare yearend accruals.



                                                6
Additionally, all yearend cost accrual entries were reviewed and approved by BRMD prior to
AFSC processing.

Auditor Comments

       Management's comments are responsive to the finding and recommendations.




                                              7
4. Payroll Deficiencies at Sandia

        It is DOE's policy that integrated contractors' customary accounting practices produce
accurate results. However, Sandia had payroll deficiencies that impacted the accuracy of its
payroll costs. Sandia overpaid unused vacation and long-term sickness benefits and did not
reconcile all payroll accounts. For example:

   • Sandia Internal Audit examined payroll data for 5 of 349 terminated employees and
     determined that 2 were overpaid for unused vacation by approximately $800. This
     occurred because of improper calculations. Since it did not review the remaining 344
     terminated employees, Internal Audit did not determine if there were additional
     overpayments.

   • In addition, Internal Audit determined that long-term sickness benefits were overpaid.
     These overpayments occurred because Sandia's software program incorrectly replenished
     the sick hours available in the three categories of sickness absence: short-term at full pay,
     long-term at full pay, and long-term at half pay. Internal Audit did not show the amount
     due Sandia.

   • A Sandia self-assessment reported that not all payroll accounts had been reconciled by the
     end of FY 1998. In addition, our review of the self-assessment group's working papers
     showed that Sandia had "other unidentified differences" as high as $11.5 million. The
     self-assessment report noted that reconciliation responsibilities had not been properly
     delegated.

        The self-assessment identified numerous indicators of a breakdown in the payroll
environment's internal control structure beginning with the FY 1998 implementation of a new
integrated payroll, human resources, and benefits program. When Sandia identified the
deficiencies, it pursued corrective actions; however, these actions were not completed as of
September 30, 1998.

        As a result of these deficiencies, DOE has reduced assurance that Sandia accurately
reported payroll costs for FY 1998. Furthermore, some accounts may be improperly stated
because of overpayments to terminated employees and employees collecting long-term sickness
benefits.

Recommendations

       We recommend that the CFO, Albuquerque, direct Sandia to:

       1. Determine the total amount of overpayments made to terminated employees and
          employees collecting long-term sickness benefits and reimburse DOE;

       2. Reconcile the payroll accounts and make the necessary accounting adjustments; and,



                                                8
       3. Complete corrective actions to ensure the accuracy of the software program.


Management Response

        Management concurred with the finding and recommendations and Sandia initiated
corrective actions. Sandia will complete a review of employees terminated on dates subject to
the overpayment error by April 30, 1999, and will initiate collection of any moneys owed to
DOE. Sandia stated that the system deficiencies regarding sickness absences had been corrected
and the net effect of corrections for Fiscal Year 1998 was about $1,000. Sandia also plans to
complete the final payroll account reconciliation by September 30, 1999, and stated that all
material deficiencies in the software noted in the report have been corrected, with the exception
that the software does not accurately accrue vacation days earned. This deficiency will be
corrected by April 30, 1999.

Auditor Comments

       Management's corrective actions are responsive to the finding and recommendations.




                                                9
5. Understated Salaries Payable at Los Alamos

        The contract between DOE and the University of California requires Los Alamos to
maintain effective management control systems. It also requires that financial reports necessary
to maintain accountability and managerial control be accurate, reliable, and timely. However,
Los Alamos' Internal Audit reported that the Los Alamos salaries payable account was
understated by about $70,000 at the end of FY 1998. According to a payroll accountant, the
understatement involved improper accounting for payroll adjustments for refunds due Los
Alamos. Los Alamos did not reconcile the general ledger accounts to the subsidiary ledgers or
other supporting documentation to assure that the general ledger accounts were accurate. As a
result, Los Alamos' salaries payable was understated by about $70,000 at the end of FY 1998.

Recommendations

       We recommend that the CFO, Albuquerque, direct Los Alamos to:

       1. Correct the salaries payable account balance; and,

       2. Reconcile all general ledger accounts to subsidiary ledgers or other supporting
          documentation before completing the annual reconciliation of the general ledger
          accounts to DOE's financial statements.

Management Comments

        Management concurred with the finding and recommendations and developed a
corrective action plan. Los Alamos identified the adjustments to correct the salaries payable
account and recorded the adjustments in February 1999. Los Alamos will also reconcile all
subsidiary ledgers or other supporting documentation to its trial balance on a monthly basis and
prior to completing the quarterly reconciliations of the general ledger balances to the DOE trial
balance.

Auditor Comments

       Management's corrective actions are responsive to the finding and recommendations.




                                                10
6. Unpaid Obligations

         The DOE Accounting Handbook requires Field CFOs to regularly review unpaid
obligations, with emphasis on large-dollar, inactive, prior-year obligations; to independently
evaluate and confirm unpaid obligations; and to promptly deobligate excess balances. However,
out of six inactive unpaid obligations that we tested, we found five, totaling about $73,000, that
were no longer valid and should have been deobligated. AFSC had not evaluated and confirmed
its FY 1998 yearend unpaid obligation balances; rather, AFSC assumed that program managers
would review their unpaid obligations and inform it of any needed deobligations. However, not
all program managers reviewed their unpaid obligations. Therefore, Albuquerque did not know
if its unpaid obligations balances were valid or if deobligations were warranted.

Recommendation

       We recommend that the CFO, Albuquerque, review, independently evaluate, and confirm
unpaid obligations, and assure that excess balances are promptly deobligated.

Management Comments

         Management concurred with the finding and recommendation. Albuquerque stated that it
would develop, by June 30, 1999, an operational plan in which financial plan holders are notified
of unpaid obligations quarterly and requested to confirm balances, with negative responses
required. Unpaid obligations would be confirmed by August 31, 1999. Albuquerque also stated
that it would emphasize to program managers, in yearend workshops, the importance of verifying
unpaid obligations.

Auditor Comments

      Management's planned corrective actions are responsive to the finding and
recommendation.




                                                11
7. Differences with Treasury Balances

         Treasury requires that all differences between its monthly report of funds on hand and an
entity's accounting records be reconciled within six months. However, we found that
Albuquerque had not reconciled differences that date back to at least FY 1988. As of September
30, 1998, Albuquerque showed a net $7.6 million more in funds on hand than reported by
Treasury (that is, Albuquerque showed $17.1 million less disbursed and $9.5 million less
collected than Treasury). Since that time, Albuquerque identified $1.2 million of the collection
differences but indicated that it does not have the staff needed to reconcile the remaining
differences. As a result, Albuquerque's accounts payable may be overstated by $17.1 million and
accounts receivable may be overstated by $9.5 million.

Recommendations

       We recommend that the CFO, Albuquerque:

       1. Continue to research disbursements and collections to reconcile the differences; and,

       2. Make the journal entries necessary to properly record the $1.2 million collection.

Management Comments

        Management concurred with the finding and recommendations and indicated that it will
complete action on recommendation 1 in December 2000. Albuquerque plans to prepare journal
entries by March 30, 1999, for the $1.2 million identified in recommendation 2.

Auditor Comments

      Management's planned corrective actions are responsive to the finding and
recommendations.




                                                12
                                             PART III

          STATUS OF PRIOR YEAR OPEN FINDINGS AND RECOMMENDATIONS

        This section provides a status of seven findings reported in the Report on Matters
Identified at the Albuquerque Operations Office During the Audit of the Department's
Consolidated Fiscal Year 1997 Financial Statements (Report Number WR-FS-98-06; July 10,
1998). These findings are still pending resolution or require further attention.

1. AlliedSignal Inventory Valuation Should Approximate Historical Cost

        AlliedSignal valued parts obtained from other DOE facilities at the current transfer price
and parts purchased from outside vendors at the latest purchase price, rather than at historical
cost. This occurred because AlliedSignal's cost accounting system could track only one unit cost
for each inventory category. As a result, DOE's inventory was overstated. We recommended
that Albuquerque direct AlliedSignal to modify its accounting system to an historical cost
valuation method or any other valuation method that approximated historical cost. Albuquerque
agreed with the recommendation but stated that AlliedSignal would be in noncompliance until
implementation of its new cost accounting system in March 1999.

Status:

        During the current audit, we found that AlliedSignal's revaluations for the past 7 years
had resulted in a net overstatement of existing inventories by about $19 million. In January
1999, AlliedSignal indicated that it had increased the inventory valuation allowance by $19
million. Albuquerque stated that it directed AlliedSignal to ensure that its new cost accounting
system complies with this accounting standard.

2. AlliedSignal Inventory Valuation Includes Excess Capacity

        AlliedSignal had capitalized a portion of its excess capacity costs into inventory rather
than charging the costs as current period costs, as required by generally accepted accounting
principles. We recommended that Albuquerque direct AlliedSignal to (1) write off the amount of
inventory overhead costs associated with excess capacity, and (2) establish an overhead
application rate based on the inclusion of only production-related costs and actual labor hours,
and ensure that policies were in place requiring periodic (at least annual) reviews of the
appropriateness of the rate. Albuquerque agreed with the recommendations.

Status:

        During the FY 1998 audit, we determined that if AlliedSignal had calculated the amount
to write off using the methodology it employed in responding to the 1997 recommendation, it
would have written off an additional $11 million of excess capacity costs. Albuquerque directed
AlliedSignal to make the $11 million dollar adjustment and stated that the adjustment amount
was attributable to differences in estimating methodologies. AlliedSignal stated that establishing


                                                13
the overhead application rate recommended in the prior year's report was tied to the new
production costing methodology to be introduced during FY 1999.

        The OIG intends to review AlliedSignal's new production cost accounting system in FY
1999 to verify that the overhead application rate is based on the inclusion of only production-
related costs and actual labor hours.

3. AlliedSignal Excess Inventory Allowance

        AlliedSignal had not identified all excess inventories associated with retired weapons and
valued those inventories at expected net realizable value. We recommended that Albuquerque
direct AlliedSignal to identify excess inventory associated with retired weapons and determine
the correct allowance. Albuquerque concurred with the recommendation.

Status:

        Although AlliedSignal adjusted its inventory valuation allowance during FY 1998, we
found that it was overstated by $72 million because the allowance did not reflect a FY 1998
reduction in the amount of inventories excess to production needs. While stating that there was
a difference of opinion regarding definitions, Albuquerque agreed to make the $72 million
adjustment.

4. Mason & Hanger Inventory Valuation of Retired Weapons Systems

       Mason & Hanger was not in compliance with federal accounting standards because it had
not written down inventories of parts and components associated with retired weapons. We
recommended that Albuquerque direct Mason & Hanger to reduce the inventory to net realizable
value. Albuquerque concurred and stated that Mason & Hanger would adjust the allowance
account on an annual basis.

Status:

        During the current audit, we found that the inventory valuation allowance was overstated
by $70 million because Mason & Hanger had incorrectly classified parts currently needed for
program use as obsolete. Albuquerque stated that Mason & Hanger made post closing entries in
December 1998 to reduce the allowance by about $70 million as of September 30, 1998. In
order to prevent a recurrence of this condition, Albuquerque stated that Mason & Hanger's
Accounting Section would, at fiscal yearend, request confirmation from the Planning and
Scheduling Department that the production status of each weapon system shown in the program
summary cost report was correct.




                                                14
5. Deobligations of Completed Reimbursable Work

        Albuquerque was not initiating timely deobligations of customer funds for completed
reimbursable work performed by its contractors. We recommended that Albuquerque (1) provide
timely notification to the ordering agency regarding the amount of funds to be deobligated;
(2) revise internal procedures to include timeframes for budget, accounting, and program offices
to complete closeout requirements; and (3) clarify the closeout procedures so contractors
understand their responsibilities. Albuquerque agreed to modify its processes and requirements
and to clarify contractor responsibilities.

Status:

        As of September 30, 1998, Albuquerque was (1) evaluating ways to improve the process
for timely notification to ordering agencies concerning unneeded funds committed to reimbursable
work; (2) assessing the responsibilities of budget, accounting, and program offices and
determining the most efficient sequence for timely closeout of reimbursable work orders; and
(3) meeting with its contractors to clarify their duties for closing completed reimbursable work
orders. Albuquerque was also monitoring the adequacy of ongoing changes to closeout
procedures before making a formal revision. Subsequently, Albuquerque updated the procedures
and issued guidance to its contractors.

6. Collection of Delinquent Receivables from Other Federal Agencies

       Albuquerque had not implemented DOE's debt collection procedures for collecting
delinquent accounts receivable from other federal agencies. We recommended that Albuquerque
implement the debt collection strategy as outlined in the Accounting Handbook.

Status:

        Although Albuquerque implemented aggressive collection procedures during FY 1998
and collected $31 million of delinquent receivables, it still had $29 million of outstanding
delinquent receivables at yearend. Albuquerque had not referred any delinquent accounts to, or
sought assistance from, the Attorney General during FY 1998 because the Accounting Handbook
did not contain definitive guidance on how to collect other federal agency receivables through the
Attorney General. We contacted the DOE CFO's Office of Financial Policy, which stated that
unresolved interagency claims should be referred through the DOE CFO to the Attorney General
for resolution. Because this was omitted from DOE's policy, the CFO agreed to correct the
policy and assist Field CFOs in their collection efforts.

7. Grant Advances in Excess of Authorized Amounts

       Albuquerque was not monitoring grant recipient withdrawals and three recipients had
drawn $407,000 in excess of advance funds authorized by Albuquerque. We recommended that
Albuquerque reconcile all grants and initiate appropriate collection actions. Albuquerque
concurred with the recommendation.


                                                15
Status:

        During FY 1998, Albuquerque began the grant reconciliation process and recovered
unauthorized advances from twelve recipients. Albuquerque estimated that it would complete the
grant reconciliation process by December 2000.




                                              16
                                                                    IG Report No. WR-FS-99-02

                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and therefore ask that you consider sharing your thoughts with us. On the back of this form, you
may suggest improvements to enhance the effectiveness of future reports. Please include answers
to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures
   of the audit or inspection would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.


Name_________________________                     Date __________________________

Telephone______________________                   Organization____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                               Department of Energy
                               Washington, D.C. 20585
                               ATTN.: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact Wilma Slaughter at (202) 586-1924.
